Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     March 26, 2014

MEMORANDUM TO:                            Martin J. Gruenberg
                                          Chairman


                                          /Signed/
FROM:                                     Fred W. Gibson, Jr.
                                          Acting Inspector General

SUBJECT:                                  Reliability of Previously-Issued Audit Reports on the FDIC’s
                                          Information Security Program


In a memorandum dated May 30, 2013, the Office of Inspector General (OIG) informed you
that it had become aware of information related to the FDIC’s information security program
that could affect the reliability of two previously-issued audit reports—Independent Evaluation
of the FDIC’s Information Security Program—2011 (Report No. AUD-12-002, dated
October 31, 2011) and Independent Evaluation of the FDIC’s Information Security Program—
2012 (Report No. AUD-13-003, dated November 5, 2012). These reports were not made
available to the public due to the sensitive nature of the information they contained. Only the
reports’ Executive Summaries, which did not contain sensitive information, were posted on our
public Web site.

Consistent with Government Auditing Standards, we provided notice to users of the reports
that the associated findings and conclusions may not be reliable. Further, we performed
expanded audit procedures during 2013 to assess the impact of the information on the earlier
reports. Based on those procedures, we determined that the findings and conclusions related to
Incident Response and Reporting and Risk Management in both reports were not reliable, but
that the reports’ other findings and conclusions were reliable, and the associated
recommendations were valid. The results of our expanded audit procedures are described in
our audit report, entitled Independent Evaluation of the FDIC’s Information Security
Program—2013 (Report No. AUD-14-002, dated November 21, 2013).

We plan to link this memorandum to the Executive Summaries of the earlier audit reports
posted on our public Web site to clarify the associated findings and conclusions.

If you have questions or concerns regarding this matter, please contact me at (703) 562-6339.
                                    Executive Summary
                                     Independent Evaluation of the FDIC’s
                                     Information Security Program—2011

                                                                                    Report No. AUD-12-002
                                                                                             October 2011

Why We Did The Audit
The Federal Information Security Management Act of 2002 (FISMA) requires federal agencies, including
the FDIC, to perform annual independent evaluations of their information security programs and practices
and to report the evaluation results to the Office of Management and Budget (OMB). FISMA states that
the independent evaluations are to be performed by the agency Inspector General (IG), or an independent
external auditor as determined by the IG. The objective of this performance audit was to evaluate the
effectiveness of the FDIC’s information security program and practices, including the FDIC’s compliance
with FISMA and related information security policies, procedures, standards, and guidelines.


Background
Key to achieving the FDIC’s mission of maintaining stability and public confidence in the nation’s
financial system is safeguarding the sensitive information that the Corporation collects and manages.
Ensuring the confidentiality, integrity, and availability of this information in an environment of
increasingly sophisticated security threats requires a strong, corporate-wide information security program.

FISMA directs the National Institute of Standards and Technology (NIST) to develop risk-based
standards and guidelines to assist agencies in defining security requirements for their information
systems. In addition, OMB issues information security policies and guidelines, including annual
instructions to the heads of federal executive departments and agencies for meeting their reporting
requirements under FISMA. The Department of Homeland Security (DHS) exercises primary
responsibility within the Executive Branch for the operational aspects of federal agency cybersecurity
with respect to the federal information systems that fall within the scope of FISMA. DHS’s
responsibilities include overseeing agency compliance with FISMA and developing analyses for OMB to
assist in the development of OMB’s annual FISMA report to the Congress. In this regard, DHS provided
agency IGs with a set of security-related questions to address their FISMA reporting responsibilities in a
June 1, 2011 document entitled, FY 2011 Inspector General Federal Information Security Management
Act Reporting.

We evaluated the effectiveness of the FDIC’s information security program and practices by designing
audit procedures to assess consistency between the FDIC’s security controls and FISMA requirements,
OMB policy and guidelines, and applicable NIST standards and guidelines in the areas covered by the
DHS questions. In addition, we engaged KPMG LLP to provide audit assistance in certain security
control areas. We are required to be submit our responses to the DHS questions through OMB’s FISMA
reporting platform—CyberScope—by November 15, 2011.


Audit Results
We concluded that, except as noted below, the FDIC had established and maintained information security
program controls that were generally consistent with FISMA requirements, OMB policy and guidelines,
and applicable NIST standards and guidelines for the security control areas that we evaluated. Of
particular note, the FDIC had established security policies and procedures in almost all of the security
control areas evaluated. In addition, the FDIC continued its prior-year efforts to implement current and
emerging security standards and guidelines published by NIST, such as updating its security plan
template to reflect new NIST guidelines. The FDIC had also implemented various security control
                                     Independent Evaluation of the FDIC’s
   Executive Summary                 Information Security Program—2011

                                                                                     Report No. AUD-12-002
                                                                                              October 2011

improvements following our prior-year security evaluation. Most notably, the FDIC made meaningful
progress in developing an agency-wide continuous monitoring program to evaluate the security of its
information systems and hired additional information security managers to support and administer
security over its general support systems and major applications.

Notwithstanding the above achievements, priority management attention continues to be warranted in
some security control areas, particularly continuous monitoring management. Specifically, significant
work remains before the FDIC’s agency-wide continuous monitoring program is fully implemented. In
addition, risk in the area of contractor systems remains elevated as a result of the FDIC’s continued heavy
reliance on contractors to support its bank resolution and receivership activities. While the FDIC has
developed a formal methodology for assessing risks associated with its contractor systems, work remains
to fully apply this methodology to all of the FDIC’s outsourced information service providers.
Maintaining vigilance in these and other areas of the FDIC information security program will continue to
be important given other corporate priorities associated with the current banking environment.


Recommendations and Management Comments
The report includes seven recommendations intended to improve the effectiveness of the FDIC’s
information security program controls in the areas of plans of action and milestones, remote access
management, identity and access management, and contractor systems. In many cases, the FDIC was
already working to strengthen security controls in these areas during our audit. Our report does not
include recommendations in the area of continuous monitoring management as the FDIC was working to
fully implement a multi-year effort to address a recommendation in our prior-year security evaluation
report required by FISMA.

On October 27, 2011, the FDIC’s Chief Information Officer (CIO), who also serves as Director, Division
of Information Technology, provided a written response to a draft of this report. In the response, the CIO
concurred with all seven of the report’s recommendations and described planned corrective actions that
were responsive.

The report contains sensitive information concerning the FDIC’s information security program.
Accordingly, we do not intend to release the report publicly.
